<html>
<title> - HELPING STATE AND LOCAL LAW ENFORCEMENT</title>
<body><pre>[Senate Hearing 111-225]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-225
 
                HELPING STATE AND LOCAL LAW ENFORCEMENT

=======================================================================



                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 12, 2009

                               __________

                          Serial No. J-111-21

                               __________

         Printed for the use of the Committee on the Judiciary



                  U.S. GOVERNMENT PRINTING OFFICE
54-305                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY O. GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
RON WYDEN, Oregon
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Kohl, Hon. Herb, a U.S. Senator from the State of Wisconsin......     3
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    47
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     2

                               WITNESSES

Carlson, Kristian, Lieutenant, Burlington Polices Department, 
  Burlington, Vermont............................................    15
Flynn, Edward A., Chief, Milwaukee Police Department, Milwaukee, 
  Wisconsin......................................................    18
Muhlhausen, David D., Ph.D., Senior Policy Analyst, Center for 
  Data Analysis, the Heritage Foundation, Washington, D.C........    20
Perrelli, Thomas, Associate Attorney General, U.S. Department of 
  Justice, Washington, D.C.......................................     4

                         QUESTIONS AND ANSWERS

Responses of David D. Muhlhausen to questions submitted by 
  Senator Coburn.................................................    32
Responses of Thomas Perrelli to questions submitted by Senator 
  Coburn.........................................................    35

                       SUBMISSIONS FOR THE RECORD

Carlson, Kristian, Lieutenant, Burlington Polices Department, 
  Burlington, Vermont, statement.................................    42
Flynn, Edward A., Chief, Milwaukee Police Department, Milwaukee, 
  Wisconsin, statement...........................................    45
Muhlhausen, David D., Ph.D., Senior Policy Analyst, Center for 
  Data Analysis, the Heritage Foundation, Washington, D.C., 
  statement......................................................    49
Perrelli, Thomas, Associate Attorney General, U.S. Department of 
  Justice, Washington, D.C., statement...........................    68


                HELPING STATE AND LOCAL LAW ENFORCEMENT

                              ----------                              


                         TUESDAY, MAY 12, 2009

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:06 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Kohl, Feingold, Klobuchar, 
Kaufman, and Sessions.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning. Good morning, Senator Kohl, 
Senator Sessions. I known Senator Feingold was here earlier. I 
think the Chief from Milwaukee had something to do with that.
    This is National Police Week. We are going to pay tribute 
to the men and women who work every day to protect our 
communities, our schools, and our homes, and, of course, we 
have to remember, sadly, those who died in the line of duty. 
Across this country, more than 900,000 men and women in law 
enforcement work tirelessly day in and day out to keep us safe. 
And of those brave men and women, 133 gave their lives this 
past year, and more than 18,000 have died in our Nation's 
history. We owe them our gratitude and our honor, but we also 
owe them our commitment to do whatever we can to help them in 
their vital mission.
    That is why, as this new Congress began, this Committee 
responded to the immense strain law enforcement is experiencing 
as a result of the economic downturn. I chaired the Committee's 
first hearing of the year, and that examined the urgent need 
for increased Federal assistance to State and local law 
enforcement. At that hearing, police chiefs and experts from 
around the country agreed that the current economic crisis 
makes Federal aid even more important.
    I have worked with others in the Congress in both parties 
and with the administration to ensure that the recovery 
legislation included a major infusion of funds for State and 
local law enforcement. Vice President Biden has long been a 
leader on this issue, and President Obama, when he was in the 
Senate, consistently supported us, as he has as President.
    The recovery legislation that Congress passed and the 
President signed into law included nearly $4 billion for State 
and local law enforcement, and we are already using that.
    Tough economic times create conditions that can too easily 
lead to a spike in crime. Earlier this year, USA Today reported 
a study by the Police Executive Research Forum finding that 
nearly half of the 233 police agencies surveyed had seen 
significant increases in crime since the economic crisis began. 
Sadly, a lot of that, Chief Flynn told me before the meeting 
started, is domestic violence.
    In my home State of Vermont, we have seen the largest 
recipients of these funds in Vermont are going to be the cities 
of Rutland and St. Albans, where the Judiciary Committee held 
hearings in the last Congress that showed that crime and drugs 
are not just big-city issues but also issues for rural 
communities. Our largest city is 38,000 people. We have small 
cities and towns, but we are seeing an increase in crime.
    The law enforcement funding, together with other budget 
decisions, has allowed the Vermont State Police, the State's 
largest sworn police force, to avoid laying off even a single 
uniformed police officer. But it will also help police 
departments hire new personnel in places like Burlington. The 
Burlington Police Department has continued to be a law 
enforcement innovator, not just in our State but nationally. 
For the first time, with these funds there is going to be a 
full-time mental health worker assigned to work with police on 
the street, help the uniformed police, and help decrease the 
need for them to provide mental health services.
    We will have Lieutenant Kris Carlson, who heads the Vermont 
Internet Crimes Against Children Task Force, talk to us today. 
This unit, staffed by sophisticated and well-trained experts, 
would never have existed but for Federal assistance. It faced 
serious cutbacks, but the Recovery Act helped us not to have to 
make those cuts. And when you think of the crimes against 
children, every one of us--whether it is parents or 
grandparents--should be worried about crimes against the most 
vulnerable people in our society--our children.
    I want to welcome Associate Attorney General Perrelli. Mr. 
Perrelli is already working hard to ensure that the law 
enforcement funding set out in the recovery legislation is put 
to the most effective use possible to keep our communities 
safe. Mr. Perrelli is no stranger to those of us on this 
Committee, and, of course, I am delighted to have him here.
    Chief Flynn from Milwaukee has been outspoken in saying 
that only if we support effective police strategies can we 
ensure economic recovery.
    And Mr. Mulhausen, whom I enjoyed meeting in January, I am 
glad to have you all back.
    I will put my whole statement in the record.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    Chairman Leahy. Let me yield to my friend, the senior 
Republican on the Committee, Jeff Sessions.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you. Well, Ranking Member. I have 
got a few senior folks on the Committee to me, but, Mr. 
Chairman, it is great to work with you, and I think we have 
some potential to do some real good here. I look forward to not 
only this hearing but, Mr. Perrelli, in working to help you 
utilize that money that Congress has given in the way most 
effective to reduce crime.
    I think we do have an edging up of crime now. It is 
something that we need to watch. I think the murder rate maybe 
nationally is half what it was in the early 1980s, and so we 
have made some progress in a number of areas. Some cities have 
had dramatic drops in murder rates. I believe that punishment 
is an effective deterrent and also it incapacitates a very 
small number of people who are willing to kill, murder, rape, 
and rob. Not that many who will do that in their lifetime ever. 
But with regard to the $4 billion we have appropriated as part 
of the stimulus bill, it went quickly. It was a fast-moving 
bill. I am uneasy that if we are not careful, we will not get 
the crime-fighting bang for our buck that we would like to get. 
So I am worried about that.
    I would just say, Mr. Chairman, serving as United States 
Attorney for 12 years and convening a law enforcement 
coordinating committee, the first time those had been ever 
established, and we had all our local sheriffs and chiefs of 
police, Federal agencies, and others meet to discuss our 
priorities, I have become a very, very strong believer in task 
forces, unity of effort, breaking down walls and barriers 
between departments, and we found time and time again that when 
you do that, the evidence appears that one department did not 
have and can lead to the identification of very serious 
criminal elements.
    So I think of things like the Weed and Seed program that I 
personally believe worked far better than even I thought, and I 
was supportive of it; the drug courts, where we take people in 
who have a drug problem as part of their criminal problem, and 
we put them under intensive surveillance, drug testing as a 
condition of probation but give them a second chance. Those 
things work. And there are a lot of other programs that work.
    We have a bottleneck, in my opinion, in forensic sciences. 
We are not getting quick enough feedback to our law enforcement 
police officers. If you double the number of police officers 
but do not increase their ability to get chemical analysis of 
drugs or fingerprints or blood type or DNA, then that whole 
system can be weakened.
    I think the Federal role primarily should not be the 
funding and taking over of local law enforcement, but providing 
research, good information, and good Federal dollars that can 
help them work together in a partnership way to be more 
effective. So I look forward to this hearing, and thank you, 
Mr. Chairman, for the opportunity to share these thoughts.
    Chairman Leahy. Thank you.
    Senator Kohl, you had asked to say a word.

 STATEMENT OF SENATOR HERB KOHL, A U.S. SENATOR FROM THE STATE 
                          OF WISCONSIN

    Senator Kohl. Thank you very much, Mr. Chairman. I 
appreciate your calling this hearing this morning on the 
importance of local law enforcement, and I particularly thank 
you for inviting one of Milwaukee's finest, Chief Edward Flynn 
of the Milwaukee Police Department, to testify.
    I was on the airplane late yesterday afternoon with Chief 
Flynn, and I told him how much I was looking forward to his 
being with us this morning, and he stated very clearly that he 
was looking forward to it also. But as I was walking back to my 
seat after having visited with him on the airplane, I thought 
he seemed somewhat distracted, and I did not understand exactly 
whether or not there was another motive or another reason for 
his coming to Washington. And lo and behold, I hear this 
morning that Chief Flynn has a daughter who lives here in 
Washington, and last night his daughter gave birth to a baby. 
Is that right?
    Chief Flynn. That is right, Senator, and his middle name is 
the same as my first name.
    Senator Kohl. Congratulations.
    Chief Flynn. Thank you.
    Senator Kohl. We owe a great debt of gratitude to our law 
enforcement officials who work each and every day to keep our 
communities safe by preventing crime before it happens and 
enforcing the law when it does. We at the Federal level have a 
responsibility to provide them with the resources they need to 
be successful. I am pleased that the new administration has 
expressed a commitment to restoring much needed funding to our 
successful local law enforcement and prevention programs, and 
it is in that spirit that I am pleased to be here with you all 
today.
    Chairman Leahy. Thank you very much.
    Mr. Perrelli, thank you. Welcome. I believe this is your 
first hearing, since you were sworn into your new position, 
before this Committee.
    Mr. Perrelli. That is correct, Senator.
    Chairman Leahy. Delighted to have you here. Is your 
microphone on?
    Mr. Perrelli. I think now it is.
    Chairman Leahy. There. Please go ahead, sir.

STATEMENT OF THOMAS PERRELLI, ASSOCIATE ATTORNEY GENERAL, U.S. 
            DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Mr. Perrelli. Mr. Chairman, Ranking Member Sessions and 
distinguished members of the Committee, thank you for the 
opportunity during National Police Week to discuss the 
Department of Justice's deep commitment to supporting and 
restoring its historic partnership with State, local, and 
tribal law enforcement.
    Crime remains a central issue in communities across the 
country, but at the same time many law enforcement agencies 
face reductions in municipal and county budgets, and all State 
and local law enforcement authorities have added duties in the 
post-9/11 world. Now more than ever, it is essential to 
strengthen our partnerships with State, local, and tribal law 
enforcement through meetings and listening sessions. The 
Attorney General and the Department have begun that process.
    I will talk a little bit about the Recovery Act and its 
funding, which a number of the Senators have already 
referenced. The Recovery Act provided more than $4 billion for 
State, local, and tribal law enforcement activities. The 
offices within the Department of Justice responsible for 
administering this funding--the Office of Justice Programs, 
OJP; the Office of Community-Oriented Policing Services, the 
COPS office; and the Office on Violence Against Women--have 
been working, meeting with mayors, chiefs of police, sheriffs, 
city council members, and others to talk to them about the 
resources available and help them to apply.
    OJP, which provides leadership in developing the Nation's 
capacity to prevent and control crime, is responsible for 
delivering more than $2.7 billion in Recovery Act grants. The 
lion's share of that funding, $2 billion, comes through the 
Byrne/JAG program, and I am happy to say that as of Monday, OJP 
had already announced $537 million in State and local Byrne and 
JAG awards.
    The Recovery Act also provided $225 million for the Byrne 
Competitive Grant Program, and we will be looking at 
applications in that program that are evidence based, with a 
focus on community prevention initiatives. And I would note 
that one of the trends that we have seen in that program is the 
overwhelming number of applications from local law enforcement 
seeking funds for forensic analysts and for other civilian and 
technical experts to assist them in their law enforcement 
activities.
    The Recovery Act also provides essential funding for the 
COPS office in the form of grants to create and preserve law 
enforcement officer positions with $1 billion through what we 
are calling the CHRP program, the COPS Hiring Recovery Program, 
which we believe will create or save approximately 5,500 law 
enforcement officer jobs, both stimulating the economy and 
putting more officers and deputies on patrol in neighborhoods 
across the country. That program has demonstrated to us the 
crying need in States and localities throughout the country. 
The COPS office received applications from over 7,200 
enforcement agencies for $8.3 billion in requested funds, or 
more than enough to save more than 39,000 law enforcement 
officer jobs.
    The third major initiative is through the Office of 
Violence Against Woman, where there are $225 million, both 
through the STOP Violence Against Women Formula Grant and 
Grants to Tribal Governments Program, which support the work of 
State, local, and tribal law enforcement in addressing domestic 
violence and sexual assault.
    Turning a little bit to the 2010 budget, which the 
President announced last week, in that proposal the 
administration is requesting $2.6 billion for State and local 
law enforcement assistance. That funding will be used to 
establish and build on partnerships, hopefully to meet Senator 
Sessions' point of a unity of effort between the Federal 
Government and State and local law enforcement in areas such as 
violent crime, illegal drugs, gang activities, information 
sharing.
    In addition to providing support through grants at the 
State, local, and tribal levels, it is critical that we support 
our new and innovative approaches to addressing crime with 
evidence. The administration believes that our approach to 
fighting crime, like other important issues of the day, should 
be backed by sound science.
    At the Department we are following through on that 
commitment by working to integrate research from the field into 
our programmatic activities. In many cases, State and local 
authorities already have the knowledge, and it is a question of 
gathering it in the right place, determining what are best 
practices, and spreading those to the field.
    If our partnership with State, local, and tribal law 
enforcement is to endure, Federal financial support cannot be a 
one-time occurrence. The country is facing prolonged problems 
that require steadfast commitment and long-term cooperation. At 
the Department we are committed to restoring that partnership 
with State, local, and tribal authorities in every way that we 
can to address public safety.
    Thank you for the opportunity to testify before the 
Committee, and I am pleased to answer any questions the 
Committee may have.
    [The prepared statement of Mr. Perrelli appears as a 
submission for the record.]
    Chairman Leahy. Well, thank you very much, and I think some 
of this you have covered. But I know when those of us who 
advocated for the $4 billion for State and local law 
enforcement--and as I mentioned earlier, it was the first 
hearing this Committee held this year on the need for that--we 
heard some criticism saying that, one, the State and local 
governments did not need this help, and another criticism, the 
Federal Government could not get it out or act quickly enough. 
But I understand that just 3 months later you have awarded $500 
million already to State and local police.
    What kind of response are you getting from them? Are they 
saying, gee, whiz, OK, or what? I am not trying to put words in 
your mouth. I am just curious.
    Mr. Perrelli. The Attorney General had a law enforcement 
summit in April, hearing from about 75 leaders in law 
enforcement nationwide, as well as in State and local 
communities. And the message was loud and clear that they were 
facing difficult budget pressure, that they very much needed 
the assistance of the Federal Government both to continue what 
they were doing as well to advance a number of long-term 
initiatives, such as information sharing, the joint task 
forces, dealing with gang initiatives in particular as well as 
illegal narcotics trafficking and crimes against children.
    So we have seen both in those listening sessions with State 
and local law enforcement a tremendous desire to work together, 
certainly on the funding level but also to develop that unity 
of effort that Senator Sessions talked about.
    Chairman Leahy. It may be too early to tell, but are you 
getting any idea of how many jobs that were either created or 
saved because of this?
    Mr. Perrelli. We are estimating that once the COPS funding, 
which we hope will reach communities in late summer, early 
fall, we would estimate that that will create or save 
approximately 5,500 officer positions. In some of the other 
programs we are still trying to develop the appropriate metrics 
to measure job creation in that context, but we certainly know 
that those funds are very much needed by the communities to 
which they are going.
    Chairman Leahy. Just to kind of emphasize, most law 
enforcement matters tend to be pretty bipartisan or 
nonpartisan. I want to emphasize what Senator Sessions said 
about the joint task force and all, and I see this especially 
in a little State like the State of Vermont, with 640,000, 
650,000 people. We stretch from the Canadian border down to the 
Massachusetts border, New Hampshire on one side and New York on 
the other. We are near metropolitan areas where drug gangs and 
others think this is easy picking going into small towns where 
you have a small police force. They can move in there and, of 
course, it is young people especially that are hurt by it.
    We have used the task forces very, very effectively in 
going after these people, I think to their surprise, and the 
Task Force on Child Predators, all these other things, I just 
mention that. I know you know it, but you will hear it from a 
lot of us up here, as Senator Sessions says, as I am saying, 
especially in small rural areas, the task forces can be very 
helpful. But many times they need the kind of funding that 
comes from your office to set them up, to organize them, 
especially at a time when you have--when you have such a strain 
on our State and local budgets. We have some very, very good 
men and women out there in law enforcement, but they need the 
wherewithal to put these kinds of programs together. Would you 
agree with that?
    Mr. Perrelli. I certainly would agree with that, and in the 
Recovery Act as well as in the President's 2010 budget, there 
are additional funds requested specifically for rural law 
enforcement programs, and the COPS program itself recognizes 
this by ensuring that money is distributed to large communities 
as well as smaller communities. I think that is important. But 
I think your fundamental point that the task force approach at 
the Federal, State, and local level is critical to controlling 
crime is the right one.
    Chairman Leahy. And I emphasize, we are not trying to set 
up either/or types of things. I do not in any way want to take 
from the problems that large cities have. A lot of cities are 
several times the population of my own State, and they have 
some very unique problems because of that.
    You have in the Office of Justice Programs component parts, 
including the COPS office, billions of dollars in grants for 
State and local law enforcement to award. Incidentally, we keep 
talking about the COPS program. That is C-O-P-S for any of the 
people who may be watching this on C-SPAN or anywhere else. It 
is the name of the program.
    What kind of plans do you have for awarding this grant 
money going forward? And what kind of programs do you expect to 
support?
    Mr. Perrelli. Through the COPS hiring program, that program 
is focused on the ability of funding local communities to hire 
individual officers, essentially 3 years' worth of funding with 
a guarantee from the local community that they will fund for an 
additional year thereafter. But there are other programs, 
particularly programs focused on protecting our children 
against child exploitation, programs that fund the schools and 
law enforcement working with schools to make schools safer 
environments, as well as a host of technical assistance efforts 
that the COPS office oversees, principally to help local 
communities, make them most effective, make their local police 
most effective by helping them find the right strategies and 
solutions.
    Chairman Leahy. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you.
    Mr. Perrelli, you are the Associate Attorney General, and 
in that position you are responsible for Office of Justice 
Programs and basically the policies of the Department with 
regard to State and local law enforcement?
    Mr. Perrelli. Under the Associate Attorney General, there 
is the Office of Justice Programs as well as the COPS office 
and the Office on Violence Against Women. Those are the primary 
grantmaking policy arms. That is correct.
    Senator Sessions. And do you have the Bureau of Justice 
Statistics?
    Mr. Perrelli. The Bureau of Justice Statistics is within 
the Office of Justice Programs.
    Senator Sessions. I will just share this with you. Fred 
Thompson had this idea--he was exactly correct--which he 
thought fundamentally the first thing the Federal Government 
should do, since we represent the whole of the United States 
and have a certain amount of money the local departments do not 
have, we could conduct research, analyze and study initiatives 
and programs that are out there that are working, and some that 
may not be working.
    Do you feel like you are adequately doing that? Because 
when we spend $4 billion, we want to be sure it goes to the 
most effective programs to reduce crime and make our citizens 
safer.
    Mr. Perrelli. Well, Senator, I think you are exactly right 
that we need to get the most bang for our buck in this context, 
as in, frankly, everything that we do. The Recovery Act is 
special in many respects, but one way is that it requires 
increased reporting, increased transparency, and increased 
accountability, and we are trying to take every step that we 
can to try and make sure that we are using money efficiently.
    On the front end, one of the things that we are doing 
differently than in the past is we are actually working with 
the Inspector General at the beginning in designing some of 
these programs. We are developing responses to requests for 
information that we get, so that there is no uncertainty or as 
little uncertainty as we can provide about what the programs 
are, what they can be used for, what they cannot be used for, 
and how the funds should be used.
    Senator Sessions. Can any of the money be used for anything 
other than law enforcement officers? Can it be used, for 
example, for forensic scientists? I am finding from what I hear 
that is a bit bottleneck in the system. You have all the police 
officers catching drug dealers and investigating murders and 
rapes, but they cannot get their DNA or their chemical analysis 
done. Is any of that money available for them?
    Mr. Perrelli. Well, Senator, you have echoed what we hear 
from State and local law enforcement all the time. The COPS 
program itself is for hiring sworn officers. What we see is 
States and localities applying through the Byrne Competitive 
Grant Program, which has over $200 million in the stimulus 
package, and we have seen thousands--I think north of 3,000 
applications for civilian personnel, many of them the kinds of 
forensic analysts that you have described. And know that has 
clearly been demonstrated to us through this as a tremendous 
need in State and local law enforcement authorities.
    Senator Sessions. Now, if an agency or a department 
applies--and why wouldn't they apply? Every good sheriff and 
police chief wants to do more in their community, and they have 
every incentive to try to get a free officer funded by the 
Federal Government. Are you able to analyze their proposals for 
how that will be used and set criteria to ensure that there is 
a furtherance of a proven initiative that would help reduce 
crime? How do you decide which departments get officers and 
which do not?
    Mr. Perrelli. Sure. In the COPS program, there are 
essentially three sets of criteria: economic criteria--this is 
under the COPS Recovery Program--economic criteria, crime 
factors, so related to the crime rate in the individual 
community, and then their demonstrated commitment to community 
policing. And each application is being evaluated on an 
individual basis using those criteria, and the effort is to 
look at need, both in terms of how economically impacted that 
community may be in recent times, longer term, the crime rates, 
and then what they have done and what they have committed to do 
in terms of the kinds of preventive strategies and creative 
strategies.
    Senator Sessions. Have you been able to have the time to 
think through the possibility of placing other additional 
criteria on the receipt of these grants that you think would 
further law enforcement? Or are you operating basically on the 
statutory requirements that Congress has given you? How much 
discretion do you have in terms of policymaking with regard to 
the money that you distribute?
    Mr. Perrelli. We are operating under the statutory 
criteria, recognizing the Recovery Act's focus on economic 
development, the COPS office's traditional focus on crime 
factors as well as the community policing. Certainly within 
that there will be an evaluation of particular programs. There 
are factors like consulting with the U.S. Attorney to find out 
is there actually a problem with a particular department that 
would suggest that they are not the best department to fund; or 
history, has this department not done a good job in the past, 
or has this department done an extraordinarily good job in the 
past. So those which may not be precisely statutory factors 
certainly come into play.
    Senator Sessions. Well, Mr. Chairman, my time has run, and 
we will have--there are some critics of the proposal, as you 
know. It has not accomplished what we would like it to 
accomplish in some areas, for sure. And I think you should not 
hesitate to ask us, and I am sure the Chairman, if you make 
some recommendations as to how to make it better, maybe we can 
get some laws done that will help you.
    Thank you.
    Mr. Perrelli. Thank you, Senator Sessions.
    Chairman Leahy. Thank you. Thank you, Mr. Perrelli.
    Senator Kohl.
    Senator Kohl. Thank you, Mr. Chairman.
    Mr. Perrelli, while your focus here today is local law 
enforcement support, juvenile crime prevention and 
rehabilitation efforts play a big role in reducing crime rates. 
The Juvenile Justice and Delinquency Prevention Act has played 
a key role in successful State and local efforts to reduce 
juvenile crime and get kids back on track after they have run-
ins with the law. Positive intervention and treatment at an 
early stage, we have learned, can prevent further violent 
behavior and steer young people in the right direction before 
it is too late. In addition, some studies have shown that for 
every dollar that we spend on prevention, we save $3 or $4 in 
costs that are attributable to juvenile crime.
    Senators Leahy, Specter, myself, and others recently 
introduced legislation to make important improvements to 
juvenile justice programs. Can we count on your strong support 
in reauthorizing and strengthening JJDPA?
    Mr. Perrelli. Senator, I think we have been very strong 
supporters of OJJDP and the juvenile justice programs that it 
has worked on over many years, and I think the focus of all of 
our efforts has really been three-pronged--which is prevention, 
enforcement, and then trying to work on issues such as re-entry 
and reducing recidivism. So we would very much like to work 
with you on OJJDP reauthorization.
    Senator Kohl. Mr. Perrelli, we cannot underestimate the 
value of working to keep young people from getting in trouble 
in the first place. Title V is the only Federal program solely 
dedicated to juvenile crime prevention. Sadly, funding for the 
Title V juvenile crime prevention programs has been on a steady 
decline. Last year, Title V received only $64 million for the 
entire country. That was down from $95 million in 2002.
    We know that our local communities can leverage this 
funding to accomplish great things, but the fact that a 
successful and critically important program like Title V 
receives so little funding is deeply troubling.
    This year, the President has committed $65 million to Title 
V juvenile crime prevention. Now, is $65 million to make up for 
years of inadequate support? And is it sufficient in and of 
itself?
    Mr. Perrelli. Well, Senator, the $65 million is what the 
President has chosen to request in this area. I think it has to 
be seen in the context of both the funding requested through 
the Recovery Act as well as in the fiscal year 2010 budget, a 
series of programs, including funding of, for example--
additional funding, for example, of the Second Chance Act, 
which will hopefully work on re-entry issues, both for adult 
and juvenile populations, and hopefully address some of the 
concerns that you have raised, albeit through other programs.
    Senator Kohl. Philosophically, Mr. Perrelli, why do you 
think there is such a wide difference of opinion between those 
like yourself who really believe that the Federal Government 
can provide assistance to local governments with respect to 
local law enforcement and juvenile crime prevention programs 
and those who do not believe that it does much good at all? I 
am sure you have thought about it a lot. You have some respect, 
I am sure, if not considerable, for opposing points of view. 
Why do we have such a deep divergence here?
    Mr. Perrelli. I certainly come from the perspective that we 
are all going to be more effective if we are pulling the oars 
in the same direction, and that means partnership is critical. 
And I think the Federal Government plays an important role as 
one law enforcement agency working with other law enforcement 
agencies, but also in funding programs that can allow State, 
local, tribal, and Federal law enforcement to work together.
    Everything that I have seen both in experience and talking 
to law enforcement officers, such as you will see on the next 
panel, law enforcement officers in my family who have been on a 
COPS grant and have spoken about how significant they thought 
that was and how effective it was. And I think all the research 
suggests that where we operate with this unity of purpose, 
unity of effort, we are going to accomplish more, and that is 
certainly true in the juvenile justice area.
    Senator Kohl. But why do some disagree so strongly?
    Mr. Perrelli. I understand the argument that law 
enforcement, including in the area of juvenile justice, is a 
local function and the argument that the Federal Government 
should not necessarily be involved. But I guess my sense is 
that it is the officer walking the beat who is going to be the 
first person to--is going to be the first responder, is going 
to be the person who may well find out that a bank robbery is 
occurring before any Federal agent becomes involved, is as or 
more likely to be the person who is going to get a tip that may 
lead to an investigation related to terrorism-related crime.
    There is no substitute for the people on the ground in 
local communities who know their communities, and that has a 
tremendous impact on crime prevention and law enforcement 
across the board.
    Senator Kohl. [Presiding.] Thank you very much, Mr. 
Perrelli. Thank you, Mr. Chairman.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Senator, and thank 
you, Mr. Perrelli, for joining us today as well as Chief Flynn 
and Lieutenant Carlson--Chief Flynn from our neighboring State 
of Wisconsin. It is a very good topic today. I can tell you I 
was sitting here thinking about the change the COPS program 
made in the county where I was a chief prosecutor, Hennepin 
County. We went from, in the mid-1990s where the New York Times 
dubbed Minneapolis ``Murder-apolis,'' to a very low crime rate, 
and you can literally trace it with that COPS funding.
    I was listening to your answers to Senator Kohl about the 
reasons and the need for this funding with tips for major 
crimes and other Federal investigations. I would also add just 
having those police on the beat makes a huge difference for the 
community because crimes are not committed when those police 
are out on the best.
    And I would add what Chief Flynn said in his written 
testimony, that also when you have a safer neighborhood, you 
have a stronger economy, which was why I was such a strong 
believer that we needed that COPS funding in the stimulus 
package, in the economic recovery package. I was glad it was 
there. We also pushed not to have a local matching grant, which 
we thought would be very difficult to do in these hard times.
    My question, I think, first of all, is as you look at the 
COPS program in the Department of Justice now, are you looking 
at those local matching grants, if you think there should be 
changes made to those to make it easier for local communities 
to get the grants? It may not be the percentage change. It may 
be other things.
    Mr. Perrelli. Well, in both the Recovery Act and in the 
2010 budget, the President's 2010 budget, the local match has 
been removed, and we have certainly seen it is one factor in 
why so many communities have applied for funding through the 
COPS program. It removed an impediment that many State and 
local law enforcement officials told us was a significant 
issue, a significant problem that prevented them from 
participating in the program.
    So I think we are interested to see how the program 
progresses, but we have found that it has been a helpful 
development.
    Senator Klobuchar. And are there other changes you think 
that could be made with funding for the program or how the 
funds are given out?
    Mr. Perrelli. I think at this point we want to see how the 
Recovery Act progresses. We are going to get an enormous amount 
of very recent data soon, and we may be able to formulate some 
legislative proposals, and I think at this point we do not have 
anything based on the evidence to suggest.
    Senator Klobuchar. I have talked about this before with you 
and others in the Justice Department. I just see this 
tremendous pressure being pushed down on local law enforcement. 
You first have the economy, which can lead to more crime; you 
know, the statistics are different in different places. But 
mostly you are having these enormous white-collar 
investigations in the Department of Justice and in the U.S. 
Attorneys' Offices across the country. We have a major one, I 
think the biggest one we have ever had, going on in Minnesota 
right now. I was on the plane yesterday reading the Vanity Fair 
article about the Bernie Madoff case from the perspective of 
his secretary. It made me think a lot about all the resources 
going in. They described all of the FBI agents and everyone 
else looking at all those documents. And all of that is getting 
pushed down.
    Now, I remember when I was in after 9/11, when the U.S. 
Attorneys' Offices were understandably focusing on that, and 
now they are focusing on white-collar, and there will be cases 
coming out of the TARP funds and cases coming out of some of 
the stimulus money, corruption cases coming out of that.
    Do you believe that you are going to see more push on local 
law enforcement having to do with million-dollar embezzlement 
cases and those kinds of things that cannot be handled by the 
U.S. Attorneys' Offices?
    Mr. Perrelli. Well, I think it is certainly true that the 
pressure on local law enforcement is extraordinary right now, 
both because of the economy and other demands, as you 
discussed.
    One of the things that we have focused on is recognizing 
that through the stimulus program, we need to help work with 
State and local authorities so that they can recognize when 
there may be fraud or there may be waste or other problems, and 
working with them to help them be able to serve that function, 
because they will frequently be on the front lines and be able 
to work with, take a leading role in working with Federal 
authorities and making sure that money is spent appropriately.
    Senator Klobuchar. You also have the $225 million Byrne 
Competitive Grant program. We have a drug court in our county 
that we made some changes to, I believe to make it better, in 
the last few years. Do you plan on suggesting the expanding of 
drug courts? Do you see community prosecution as a viable way 
to go? I know that is something that was talked a lot about. In 
fact, Attorney General Holder used community prosecution when 
he was the U.S. Attorney in D.C. Could you just comment 
briefly--I am almost running out of time--on those two 
programs?
    Mr. Perrelli. I think both those programs, which are, I 
think, creative solutions, good ways to address all the prongs 
that we talked about--prevention, enforcement, and re-entry--I 
think are all areas where we are looking, and certainly they 
have a lot of interest in funding specialized courts like drug 
courts and have sought some additional funds in the 2010 budget 
for that.
    Senator Klobuchar. OK. Thank you very much.
    Mr. Perrelli. Thank you.
    Chairman Leahy. Thank you.
    Senator Kaufman.
    Senator Kaufman. Thank you, Mr. Chairman.
    Obviously, we are all very, very concerned about the COPS 
program. It is an incredibly successful program, an incredibly 
important program. Can you kind of go through the timing--I 
know you have said it is going to be June--and why it has taken 
so long to get it actually done?
    Mr. Perrelli. Certainly. So we received all the 
applications, and we received roughly 8 times as many 
applications as we will be able to fund. So the number of 
applications I think has astounded everyone.
    The process going forward has been working with States and 
localities to confirm data, certain numbers, making certain 
that we have all the information we need, and then we need to 
go through a process of evaluating all those applications. And 
it is a very significant number.
    We are trying to avoid overpromising, and that is one 
reason why I think we wanted to have people's expectations be 
set that late summer, early fall is the appropriate time. But, 
you know, we are essentially trying to do both grant funding of 
2009 plus the Recovery Act grant funding, all in a very 
compressed window.
    Senator Kaufman. And what kind of things are you doing to 
make sure that these--or are you ever concerned about making 
sure these are geographically distributed across the country? 
Is that one of your considerations?
    Mr. Perrelli. The statute itself that created the COPS 
program requires that kind of dispersion, so that essentially 
at least, I believe, a half a percent of the overall funds will 
go to each State, and then money is divided up among large 
localities and small localities. So the program itself is 
designed to ensure that the money is dispersed in an 
appropriate fashion.
    Senator Kaufman. Do you think the non-supplanting 
provisions of the COPS program act as a surplus multiplier? Or 
do you think they lead to the inefficient use of resources?
    Mr. Perrelli. We are working very hard to make certain that 
the non-supplantation requirement is complied with and that 
State and local law enforcement officials understand what that 
requirement is and how to comply with it.
    We do not want local law enforcement to plan to get a COPS 
grant and reduce their budget accordingly. That is not an 
appropriate use of the funds, and we have been very clear about 
that.
    I think our hope is that it does turn out to be a force 
multiplier. Our experience in the past is that it has been so, 
and we are making every effort to make sure that it is again.
    Senator Kaufman. When do you think the Byrne grant 
decisions will be made?
    Mr. Perrelli. We have already announced more than $500 
million in Byrne/JAG recipients for the formula grants, and we 
will be rolling out the remainder of that $1.9 billion in the 
coming weeks.
    The Byrne competitive grants will take longer as we 
evaluate what has been, again, a historic number of 
applications, literally thousands of applications for forensic 
and other technical, non- 
officer positions, as well as other programs. We are expecting 
certainly that by September 30th,--but we are in the midst of 
evaluating that since those proposals have just come in.
    Senator Kaufman. I understand in your earlier testimony and 
questions you talked about the efficacy of the COPS program. 
Could you kind of go through the Byrne, ICAC, and STOP programs 
in terms of what you feel about the efficacy for those?
    Mr. Perrelli. Certainly. I think we are finding that 
certainly the Byrne/JAG program has been a cornerstone of State 
and local law enforcement for years, and I think our experience 
has been and certainly the experience provided to us by State 
and local governments is that it is essential to them.
    The Internet Crimes Against Children is a little bit newer, 
but I think as we know, the Internet has no bounds, and it 
reaches into every community in America, and there is literally 
nothing--we should spare no expense in trying to address those 
crimes, prevent them, and bring people to justice when it 
occurs.
    I think our sense is that those task forces are being 
effective through terrific cooperation with State and local 
authorities, and also in conjunction with programs such as 
Senator Sessions mentioned, Weed and Seed and other programs 
that take a comprehensive approach to dealing with criminal 
justice issues.
    Senator Kaufman. I want to tell you, the ICAC program is a 
wonderful, wonderful program. I want to say what you said 
before, but clearly we are instituting in Delaware, but just 
around the country the reports have been incredible, and what a 
wonderful thing to be able to do to deal with this incredibly 
difficult problem. So I really--the ICAC especially, these are 
all good programs, the ICAC especially.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you very much.
    Senator Sessions.
    Senator Sessions. I guess I will just say, Mr. Perrelli, 
that you sort of are the point man for the administration, and 
you are spending a number of billions of dollars to try to 
assist local law enforcement where fundamentally law 
enforcement occurs. It is at the local level. Ninety percent of 
law enforcement officers are probably State and local. Is that 
about right?
    Mr. Perrelli. I am not sure of the number, but that would 
not surprise me.
    Senator Sessions. Yes, and they are out there every day, 
and we want to assist them in doing their job better. And I do 
believe the Federal Government is the repository and should 
continue to gather highly valuable studies on what programs 
work and what programs do not work. And I want to pledge to 
you, if you have ideas that you would like to shift some of the 
money that may be going one way to a more effective program 
another way, we can do some testing and evaluating. And so when 
a local department decides on policy, they meet and decide they 
are going to do community policing or they are going to do a 
drug court, they will have statistical data they can rely on of 
the highest quality.
    I guess my question is: Do you feel that responsibility? Is 
that your fundamental responsibility to recommend that to your 
superiors? And can we count on you to make sure that we are 
moving the resources to the most productive areas?
    Mr. Perrelli. You can, Senator. I agree with you 100 
percent that we need to--however much money we spend, there is 
only a limited amount of money. We need to use it most 
effectively, and the only way we are going to be able to 
determine that is if we use evidence and sound science and 
research to determine that.
    Senator Sessions. Thank you, Mr. Chairman.
    Chairman Leahy. Thank you.
    Mr. Perrelli, thank you. You may want to talk to Chief 
Flynn's family with a new child. I know what it is like in your 
family, trying to get sleep during the night. If it is any 
consolation, those of us who are parents know what that is 
like.
    Mr. Perrelli. Thank you, Senator. I would not trade it for 
the world.
    Chairman Leahy. I know you would not. Thank you very, very 
much.
    Chairman Leahy. Now, if Lieutenant Carlson, Chief Flynn, 
and David Muhlhausen could come up, please.
    Our first witness, Lieutenant Kris Carlson is currently a 
patrol supervisor for the Burlington Police Department. He is a 
9-year veteran of the department, currently also serves as 
commander of the Vermont Internet Crimes Against Children Task 
Force. Lieutenant Carlson has also worked in the Chittenden 
unit for special investigations where he investigated hundreds 
of cases of sexual assault, child exploitation, child abuse, 
and child fatalities. Lieutenant Carlson earned his bachelor's 
degree in legal studies in criminology from the University of 
Massachusetts-Amherst and a master's degree in criminal justice 
from the University of Massachusetts-Lowell.
    Lieutenant Carlson, please go ahead. As always, it is great 
to see you.

 STATEMENT OF KRISTIAN CARLSON, LIEUTENANT, BURLINGTON POLICE 
                DEPARTMENT, BURLINGTON, VERMONT

    Mr. Carlson. Good morning, Mr. Chairman, thank you very 
much for having me here, and members of the Committee. My name 
is Kristian Carlson. I am currently a lieutenant with the 
Burlington, Vermont, Police Department. I have also served as a 
member of the Internet Crimes Against Children Task Force for 
the past 9 years in numerous capacities, most currently as 
commander. I am honored to be here this morning to discuss the 
impact of Federal stimulus funding via the Vermont Internet 
Crimes Against Children Task Force Recovery Act grant. This 
funding will have a direct impact on the citizens of the State 
of Vermont and will enable us to save jobs associated with the 
Vermont ICAC that would have otherwise been lost.
    Since our inception we have observed unprecedented growth 
in the use of the Internet and digital devices by those who 
seek to exploit our children. Although the population of 
Vermont is one of the smallest in the United States, the ratio 
of crimes against children facilitated by technology is on par 
with national averages, a dark cloud in stark contrast to the 
picturesque and serene backdrop of the Green Mountains. These 
problems are not unique to Vermont, however, as currently there 
are 59 ICAC task forces operating in each State working against 
similar forces.
    Since we began investigating computer-facilitated child 
exploitation in 1998, as a State and a Nation we have observed 
a substantial increase in the number, type, and scope of 
offenses committed utilizing digital technology and the 
Internet. We have also identified the evidentiary value of 
digital devices in offenses ranging from graffiti to drugs to 
homicide, including some of the most horrific--those targeting 
our children and families.
    We have watched as our children have grown up in an age of 
technological wonder and observed our youngest generation 
master new technologies that we could only have imagined.
    With ever expanding technology, the proliferation of 
digital devices that continue to shrink in size while rising in 
capability and with the overwhelming use of cellular telephones 
and handheld devices, our children are more at risk than they 
have ever been as those who seek to hurt our children have 
similarly mastered the same technologies. The resulting impact 
has been increased demand on local and State law enforcement 
agencies that lack the training and expertise to engage in 
these complex investigations and deal with intimidating amounts 
and scope of digital evidence. In turn, agencies across Vermont 
have come to rely on the specially trained and experienced 
members of the Internet Crimes Against Children Task Force.
    As previously noted, the Vermont ICAC has worked closely 
with Federal, State, and local agencies in Vermont and the 
region to investigate computer-facilitated child exploitation. 
The importance of this effort has been best exemplified in the 
following high-profile investigation:
    On June 25, 2008, 12-year-old Brooke Bennett disappeared 
from tranquil Brookfield, Vermont. The circumstances 
surrounding Brooke's peculiar disappearance led to the issuance 
of Vermont's first Amber Alert and immediately garnered 
national media attention. The Vermont ICAC became involved in 
the investigation immediately to assist in locating Brooke and 
to develop information regarding her disappearance. This 
assistance included digital forensic examiners responding to 
crime scenes, on-site forensic analysis, seizure of digital 
evidence, and investigation of Brooke's use of various Internet 
sites, including the popular social networking site MySpace. 
The information developed by the Vermont ICAC quickly focused 
the investigation on Brooke's uncle, Michael Jacques, and was 
integral in determining that Brooke was not missing but had, in 
fact, been murdered. This investigation led to a six-count 
Federal indictment charging Jacques with the kidnapping of 
Brooke resulting in her death and the production and possession 
of child pornography.
    These cases serve to highlight how prolific these offenders 
are, how wide-ranging these investigations can be, and how 
vital the Vermont ICAC has become.
    The Internet Crimes Against Children Task Force stimulus 
funding is being utilized to support our operations by 
maintaining our current staffing and increasing our overall 
capacity statewide. The funding will be utilized to directly 
support the employment of current members of the Vermont ICAC 
employed by the Burlington Police Department to include a 
digital forensic examiner and two investigators.
    Recovery Act funding will also be used to maintain the 
current contingent of full and part-time personnel hired by the 
Vermont ICAC during the previous grant cycle. This funding will 
support four forensic examiners, one digital forensic 
technician, and one law enforcement investigator. These 
positions were created through funding via the ICAC operational 
grant, the purpose of which was to assist in our overall 
investigative, forensic, and technical assistance endeavors and 
to allay the overall backlog of investigations and forensic 
examinations that continue to mount.
    Without the funding through the Recovery Act Internet 
Crimes Against Children Task Force grant, support of current 
positions would not be possible, and they would be terminated. 
This would have a devastating impact on our ability to support 
Vermont law enforcement and serve the citizens of Vermont.
    In summary, Recovery Act grant funding for the Vermont ICAC 
will assist us in sustaining our operations to prevent, 
interdict, investigate, and prosecute those who exploit our 
children by allowing us to maintain and expand our staff of 
trained investigators to investigate offenses and conduct 
proactive investigations; maintain and expand our staff of 
digital forensic examiners to conduct a high number of 
examinations and reduce the backlog of current cases; to work 
closely with our Federal and State prosecutors to ensure swift 
and certain punishment of apprehended offenders; and, in my 
opinion, most importantly, to maintain and expand our current 
program of educational outreach to parents, youths, and schools 
through instruction in the art of Internet and online safety.
    In closing, I would like to thank you, Mr. Chairman, and 
distinguished Senators for taking testimony on this important 
set of issues and for your continued leadership and support and 
assistance on law enforcement matters in Vermont and across our 
Nation.
    Thank you.
    [The prepared statement of Mr. Carlson appears as a 
submission for the record.]
    Chairman Leahy. I would also note, Lieutenant, that the 
Director of the FBI even came by your office to praise all 
those who worked on the Internet Crimes Against Children Task 
Force. I was very proud to bring him around and introduce him 
to everybody there.
    Mr. Carlson. He did. That was an amazing visit. Thank you.
    Chairman Leahy. He still talks about it.
    Chief Edward Flynn was appointed Chief of Police for the 
Milwaukee Police Department in January 2008. As Chief, he 
oversees 2,000 officers and 700 civilians. Prior to his time in 
Milwaukee, Chief Flynn served as the Chief of Police in 
Springfield, Massachusetts, and Arlington, Virginia, as well as 
serving as the Massachusetts Secretary of Public Safety under 
then-Governor Mitt Romney. Chief Flynn is a member of the Board 
of Directors of the Police Executive Research Forum, serves on 
the Executive Committee of the International Association of 
Chiefs of Police. He holds a bachelor's degree in history from 
LaSalle University and a master's degree in criminal justice 
from John Jay College of Criminal Justice. He also graduated 
from the FBI National Academy and was a National Institute of 
Justice Pickett Fellow at Harvard's Kennedy School of 
Government.
    I notice, Chief, both you and Lieutenant Carlson, what a 
change it was from my days in law enforcement to see now so 
much of the advanced degrees of officers. Don't you agree with 
that, Senator Sessions.
    Senator Sessions. Yes, it is remarkable.
    Chairman Leahy. It is remarkable, and for those of us who 
served in law enforcement years ago, I think we would both 
agree it is a great change.
    Chief, please go ahead.

     STATEMENT OF EDWARD A. FLYNN, CHIEF, MILWAUKEE POLICE 
                DEPARTMENT, MILWAUKEE, WISCONSIN

    Chief Flynn. Well, thank you, sir. You have copies of my 
remarks, so I will not read them to you. But I will note the 
following: As I look at the hash marks on my left sleeve, they 
not only remind me how old I am, but I can trace in them really 
the history of American policing over the last nearly 40 years. 
And as you reference education in policing, I can remember that 
when I was in college, it was reading the publication of the 
President's Commission on Law Enforcement and the 
Administration of Justice, ``The Challenge of Crime in a Free 
Society,'' that drew me from college to police work. And it was 
because of the law enforcement education program that I got my 
master's degree. And the generation of police officers educated 
in the early 1970s who got their bachelor's degrees and 
master's degrees under that program became the generation of 
police leaders, myself among them, who were both advocates and 
disciples for community-oriented and problem-solving policing. 
And we proudly presided over an era in which there were 
dramatic decreases in crime and violence in America's cities, 
with positive outcomes for all to see.
    One of the points I want to make as we look at the 
anticipated reinvestment in American policing and criminal 
justice is the fact for the last number of years--and I 
certainly knew this firsthand as Secretary of Public Safety in 
Massachusetts--we presided over a disinvestment in American 
policing, for understandable but, I sincerely felt at the time 
and expressed myself so, wrongheaded reasons. Gradually, 
homeland security became the monster that ate criminal justice. 
And during my years as safety secretary in Massachusetts, I 
basically saw Byrne and Justice Assistance Grants and COPS 
grants funding disappear while we bought Tyvek suits and 
command vehicles and all manner of first responder gear, and we 
lost the lessons of community-based policing, which is that 
police connected to neighborhoods learn things about those 
neighborhoods that cannot be learned any other way.
    When I was the police chief in Arlington, Virginia, I had 
the privilege on that great and terrible day of September 11th 
of leading the police recovery efforts at the Pentagon. One of 
the terrorists who was on Flight 77, Hani Hanjour, had received 
a speeding citation from my police department only a couple of 
months before. All of these individuals at some point in time 
were embedded in communities that, if connected to policing, we 
might conceivably have learned about. Certainly we know that 
now.
    So as we look at the lessons of community policing, they 
apply in many ways, not just to law enforcement but to anti-
terrorism. But there is something else very important about 
quality police work and quality investments in law enforcement, 
and that is that I honestly believe that if we are thinking in 
terms of economic stimulus and how that affects investments in 
law enforcement, the most cost-effective form of economic 
stimulus in the central cities of America is public safety.
    There is no doubt in my mind that crime causes poverty. 
Crime and the fear of crime close down stores. When warehouses 
are investing too much money in burglar alarms and floodlights 
and barbed wire, when small stores have been robbed or burgled 
or shoplifted, they close and take with them entry-level jobs 
and after-school jobs.
    When a city gets a reputation for violence, it not only 
affects its poor neighborhoods, it affects its central city. 
Sadly, every time a drug dealer shoots a drug dealer, somebody 
decides not to go to the opera or not to go to the ball game or 
not to go to the shopping center in the central city.
    I firmly believe that we have an obligation to every 
citizen in this country to ensure their public safety and that 
their public safety should not be dependent upon their zip 
code. And when we live in a country that is proud of its home 
rule, the fact is that many tax bases have moved away from the 
cities and left behind extremely vulnerable populations. And 
one of the things they are vulnerable to is violence.
    When we control violence, we change the narrative of the 
city. And if anybody doubts that, just remember when you went 
to Times Square, New York, in the 1970s, as I did, and stepped 
over people sleeping in the subways, had your windshield 
cleaned dirtily by a squeegee man, and were propositioned by a 
prostitute. Go to Times Square today, and it is Disneyland 
North, and that is directly related not only to the control of 
crime, but the reduction of fear and the resultant reinvestment 
in a central city because people felt that their investment was 
safe there.
    Every poor city I have ever worked in--and that would 
include Chelsea and Springfield, certainly sections of 
Milwaukee--when a developer came to the city, he only asked one 
question: Is it safe? They did not ask about the school system, 
public works, or any other aspect of local government. They 
wanted to know if their investment would be safe.
    My point here is that economic stimulus money invested in 
law enforcement is, in fact, economic stimulus money. If we can 
control crime, we can stir reinvestment in our cities.
    [The prepared statement of Chief Flynn appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, Chief, and I 
appreciate your testimony, coming as it does from practical 
experience, not just from an abstract view of it.
    Chief Flynn. I just have one real quick question. I heard 
that there were numerous applications for the COPS grants. I am 
wondering if you have to be here to win.
    [Laughter.]
    Mr. Perrelli. It cannot hurt.
    Chairman Leahy. There is the guy to talk to, right behind 
you. He is the one I go to.
    Our next witness is David Muhlhausen. He is a Senior Policy 
Analyst at the Heritage Foundation Center for Data Analysis. 
Dr. Muhlhausen has testified before Congress on several 
previous occasions about the law enforcement grant program, 
including before this Committee, particularly the COPS program. 
He received a Ph.D. in public policy from the University of 
Maryland Baltimore County, a bachelor's degree in political 
science and justice studies from Frostburg State. He is also 
currently an adjunct professor of public policy at George Mason 
University.
    Dr. Muhlhausen, welcome back. Please go ahead, sir.

STATEMENT OF DAVID B. MUHLHAUSEN, PH.D., SENIOR POLICY ANALYST, 
CENTER FOR DATA ANALYSIS, THE HERITAGE FOUNDATION, WASHINGTON, 
                              D.C.

    Mr. Muhlhausen. Thank you. Glad to be back.
    Again, my name is David Muhlhausen. I am Senior Policy 
Analyst in the Center for Data Analysis at The Heritage 
Foundation. I thank Chairman Patrick Leahy, Ranking Member 
Sessions, and Senator Kohl, and also the rest of the Committee 
for the opportunity to testify today. The views I express in 
this testimony are my own and should not be construed as 
representing any official position of The Heritage Foundation.
    Instead of passing legislation designed to stimulate the 
economy, Congress treated the American Recovery and 
Reinvestment Act as a political Christmas tree to be filled 
with goodies for special interest groups. Congress allocated $2 
billion for the Byrne/Justice Assistance Grant Program and $1 
billion for the Office of Community-Oriented Policing Services. 
Both of these grant programs subsidize the routine activities 
of local law enforcement and rarely, if ever, fund activities 
that are the responsibility of the Federal Government.
    My spoken testimony will focus on three points:
    First, Byrne and COPS grants do virtually nothing to 
stimulate the economy. These grants do not fund the types of 
activities that would provide a stimulus or a shock to the 
economy. Further, these grants do not elevate economic 
productivity or promote technological advancement--two 
important ingredients for economic growth. Funding for these 
programs has been either taxed or borrowed out of the private 
sector. This transfer of money out of the private sector and 
into inefficient hands of the Government is unlikely to 
stimulate the economy.
    After passage, the stimulus act requires Byrne and COPS 
grants be rapidly spent in 90- and 30-day time periods. The 
Congressional Budget Office's analysis of the act has foreseen 
some of the complications created by Federal transfers to local 
governments. The CBO acknowledges that in an environment in 
which rapid spending is a significant goal, State and local 
governments that received stimulus grants might apply some of 
the funding to activities they would have carried out anyway, 
thus lowering the long-run economic return of those grants.
    More importantly, the CBO estimates that the long-run 
impact of the stimulus act will be increased debt that will 
crowd out private investment. We note recently the news 
reporting that our national debt for this year is now going to 
be an estimated $1.8 trillion. That is four times the debt of 
last year. This act is estimated to reduce the Nation's long-
term economic output.
    Second, Congress encourages local officials to shift 
accountability for funding departments toward the Federal 
Government. During the Committee's last hearing on this issue, 
we heard testimony that local governments did not have enough 
money to adequately fund their police departments. Given that 
public safety is the primary responsibility of State and local 
governments, then these governments should seriously reconsider 
their budget priorities. If budget shortfalls exist, then 
funding should be cut from less important services.
    Some local governments have recognized that accepting 
Federal grants can create fiscal problems down the road. For 
example, Scottsdale, Arizona, turned down over $225,000 in 
Byrne funding. Council members worried that accepting the money 
would create overhead that would burden future city budgets. 
They also were concerned that the city would be accepting the 
money just for the sake of spending it.
    In North Carolina, the Lenoir County Sheriff's Office 
decided against applying for COPS grants due to concerns about 
the budgetary hole the grant would create after funding ran 
out.
    Third, COPS has an extensive track record of poor 
performance. The Heritage Foundation evaluation of COPS grants 
using data from 1990 to 1999 for 58 large cities found that the 
grants had little to no effect on crime. The hiring grants 
failed to have a statistically measurable impact on murder, 
rape, burglary, assault, larceny, and auto theft rates. 
Although the hiring grants were associated with a slight 
decrease in robberies, the meager effect suggests that 
additional funding would do little to reduce crime.
    In addition, the evaluation found that COPS grants were 
used to supplant local police spending. This finding is 
supported by multiple audits conducted by the Justice 
Department's Office of Inspector General.
    In conclusion, the addition of Byrne and COPS grants in the 
stimulus act is precisely the wrong approach to accomplish an 
economic recovery.
    Thank you.
    [The prepared statement of Mr. Muhlhausen appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much.
    Lieutenant Carlson, you mentioned in your testimony that 
the Vermont Internet Crimes Against Children Task Force was 
facing cuts before funding in the stimulus package. What kind 
of cuts were you facing before the stimulus package?
    Mr. Carlson. We were able to hire a number of positions 
during the last operational grant for forensic analysts--four 
forensic attorneys, a law enforcement investigator--that were 
being funded through our operational grant. Given the status of 
our operational grant currently, there would be no way for us 
to maintain those positions.
    Chairman Leahy. Is there any other similar type unit in 
Vermont that could have picked up the slack?
    Mr. Carlson. There are none, no, sir. And, you know, this 
is one of those areas that I think we referenced earlier 
regarding forensics. When I say forensics, we are referring to 
digital forensics, so any devices that are used really for any 
offense, and obviously we focus on child exploitation cases. 
But the collateral benefit to the folks in our unit is that 
they have the training and experience to look into devices that 
might be used in other types of offenses as well, as I said, 
from graffiti to homicide.
    Chairman Leahy. So with the money you have, you will be 
able to keep those positions now.
    Mr. Carlson. Yes, we will be able to keep those positions 
and be maintaining our current staff as we have it right now 
and maintain our current operations.
    Chairman Leahy. I think it is because of your unique role, 
actually the one place in the State, which is why the FBI 
Director came and toured your operation, including the computer 
forensic lab.
    As a Vermonter, I might say just as a personal aside, I was 
very proud to bring Bob Mueller over there. I think that he was 
impressed that a State as small as ours could do that. But I 
think he also understood that it could do it only because it 
was there for the whole State.
    Mr. Carlson. Yes. And at this point, we have become heavily 
relied upon by most of the law enforcement organizations across 
Vermont, to include its largest, the Vermont State Police, for 
our expertise in investigating Internet-related offenses, 
computer offenses, and, of course, as I mentioned, our digital 
forensic capacity.
    Chairman Leahy. Chief Flynn, you alluded to this in your 
testimony. You have advocated these funds not only to support 
State and local police but how they affect law enforcement and 
what it does to the area economically.
    Tell me again, stress again why it is you feel money spent 
on law enforcement has an effect for economic stimulus beyond 
the obvious, just hiring jobs for law enforcement.
    Chief Flynn. I think it needs to be understood as you 
watched the cycle of decay and decline of America's cities in 
the 1960s and 1970s and early 1980s, what you saw was a cycle 
driven not primarily by the economy but primarily by crime and 
the fear of crime. Those cities that experienced the most urban 
decay in terms of riots or spikes in crimes, starting in the 
1960s, lost their middle class. And no city can successfully 
succeed without a middle and working class. When people abandon 
their cities, they not only take their tax base with them, they 
take with them social capital. They take with them leadership 
capacity. And the vacancies that were left behind, the vacuums 
that were left behind, were proven over and over again in 
places like Newark and Detroit. I was born in Newark. You know, 
the Newark of the 1970s was not the Newark that I was born in. 
Its middle class abandoned it, and it abandoned it because of 
fear of crime.
    Now, it has been shown in cities that have made significant 
strides in crime reduction that economic activity will 
gradually return. When we look at Milwaukee, we have got 
significant pockets of poverty. We have a 24-percent poverty 
rate. That is in the top ten of America. And in the 
neighborhoods that have the worst poverty, they have the least 
economic opportunity because of the abandonment of many of 
their shopping districts of the stores that held those 
neighborhoods together.
    You know, when warehouses and factories close because their 
cars are getting broken into, they not only leave a gaping hole 
in our property tax, they abandon those people who could easily 
get to work there. People in a central city do not have access 
to the kind of mass transit that will get them out to some 
suburb to work.
    So we see the cities are already well situated physically. 
The challenge is can they change their reputation, and I think 
we can. And when we do change that reputation, we get an 
upsurge in downtown activity, not just a fighting chance to 
restore some activity or a challenged neighborhood. Remember, 
those are the same neighborhoods to which a generation of 
criminals that we locked up in the late 1990s are now 
returning, and they are returning to neighborhoods that do not 
have the jobs to support them. And I think that return is part 
of what is challenging our street crime rate right now as we 
try to hold the line.
    Chairman Leahy. And so, Dr. Muhlhausen, you have written 
extensively on this, and I heard your testimony. Do you believe 
the Federal Government should never support State and local law 
enforcement through the Byrne and COPS programs?
    Mr. Muhlhausen. Well, I think, first off, the COPS program 
basically subsidizes salaries of police officers, and that is 
not an appropriate Federal function.
    Chairman Leahy. So you do not think the Federal Government 
should support State and local law enforcement?
    Mr. Muhlhausen. Well, I think there are areas that, in the 
sense of information sharing and coordination, setting up DNA 
databases, helping out with task forces that address interstate 
issues and not intrastate issues, I think the Federal 
Government can do a lot to help out, helping States and law 
enforcement coordinate activities across the country. But 
paying for a local officer to walk the beat in his hometown is 
not an appropriate function of the Federal Government.
    Chairman Leahy. My time is up, and I am going to turn the 
gavel over to Senator Kohl, but I would yield first, of course, 
to Senator Sessions.
    Senator Sessions. Thank you, Chairman Leahy.
    This is a good discussion. Chief Flynn, let me say that I 
think you are right that crime does create poverty. It can 
result in an abandonment of whole neighborhoods. And in the 
past, police have abandoned those neighborhoods. Sometimes they 
have had hostile receptions there, and they have just backed 
off. And what we have learned, wouldn't you agree, from 
community-oriented policing is that good police officers in any 
neighborhood will be welcomed and can actually play a role in 
improving that neighborhood's safety and financial strength?
    Chief Flynn. Absolutely. There is no doubt, in the early 
years of my police career, that police were often the 
flashpoint for racial discord in the central city, and 
virtually every major urban disturbance of the late 1960s and 
early 1970s was, in fact, caused by a police action.
    We have seen extraordinary strides in the cementing of 
positive neighborhood and police relations because now the 
police are in there problem solving and working with people in 
those neighborhoods to create safety.
    Senator Sessions. I could not agree more. In Mobile, I was 
involved with Chief Harold Johnson, who came out of the Detroit 
Police Department, an African American leader committed to 
community-oriented policing. And it really turned the whole 
relationship between the people and the police. Crime was 
improved, and we did a Weed and Seed program together with the 
mayor, with the chief, with the Federal agencies that worked 
remarkably in a whole neighborhood that had been taken over by 
crime. So I know that can be done. We wanted Federal money to 
do it, but we did not make the cut for the Weed and Seed.
    And I will just say, Mr. Muhlhausen, it was accomplished 
without Federal money. Later on we got some Federal money. But 
basically it was utilizing the existing police, the existing 
city's ability to crack down on people who let their houses 
fall in and will not pick the garbage up, and all of those 
things that go to creating a healthy environment.
    Dr. Muhlhausen, I would just say that you made some very 
valuable points. I know people do not like to talk about it, 
but I am not convinced that just providing bodies, small 
numbers of police bodies and certain selected few departments 
who are fortunate enough to win the lottery is necessarily an 
effective crime-fighting technique.
    What I would say, Mr. Flynn and Lieutenant Carlson, is that 
the key to it is effective policing, not so much the numbers. 
Now, wouldn't you agree, Chief Flynn, that it was changing of 
tactics in New York City under Rudy Giuliani and his team and 
others, the broken windows and other ideas, that they promoted 
not just the number of police officers but the effective 
deployment of those by imaginative leadership that really made 
the progress in transforming New York City.
    Chief Flynn. They did the best of both worlds, Senator. On 
the one hand, they really did enhance their management 
accountability systems, which was critical. But the New York 
City Police Department did increase from 28,000 to 40,000 over 
those years. So I would say it was a combination of good 
management, but also extraordinary resources that enabled them 
to really drive crime down.
    Senator Sessions. And wouldn't you agree that a lot of 
departments have large numbers of police officers that are not 
being effectively utilized and that very effective strategies 
can help any Department improve its productivity, and if they 
are not doing that, they are wasting taxpayers' money?
    Chief Flynn. I think strategy connected to good data 
analysis will always do a better job for you than no strategy 
at all. But certainly having people in the public spaces of our 
most violent neighborhoods where they are visible and available 
goes a long way toward driving down fear as well as crime.
    Senator Sessions. I understand that. I understand that. You 
and I understand each other. You are a professional, and I have 
been at it for a long number of years, too. So more police 
officers will not necessarily help anybody do a better job.
    Chief Flynn. Not by itself, sir.
    Senator Sessions. But you do have to have the mix.
    With regard to the task force on Internet and child 
exploitation, I think those kinds of activities work, 
Lieutenant Carlson. I have seen it. I believe in it. People 
need to have--the average police officer does not have access 
to that. You need a specialized group that can support a whole 
area.
    Are you supporting more than just your area, the whole 
State?
    Mr. Carlson. We are currently supporting the entire State 
of Vermont. We have investigations that range from border to 
border on any given week or month. So we offer our services to 
anyone that needs it.
    Senator Sessions. Now, do you expect that the--did the 
Federal Government grant money help you create this capacity 
and create the computer systems you needed and the personnel 
you needed to get this program started?
    Mr. Carlson. From day one, we have been funded through 
Federal grant funds and have created our entire structure.
    Senator Sessions. You would expect that every city and 
every State of America to have all these task forces fully 
funded by the Federal Government?
    Mr. Carlson. I am sorry?
    Senator Sessions. Would you expect that every city and 
county in America would have the Federal Government fund those 
kinds of task forces?
    Mr. Carlson. Currently, there are 59 throughout the United 
States, and I think the goal is--so that not every city and 
State has a funded task force, but there are regional task 
forces that can assist larger and broader areas and create that 
inter-jurisdictional cooperation that we were speaking about 
earlier.
    Senator Sessions. Well, I just know that every department, 
every sizable department has people that specialize in sexual 
abuse of children. They are doing the right thing, and if we 
help them create these systems that work, each one of those 
existing officers can be supported and be a lot more effective. 
Don't you agree with that?
    Mr. Carlson. Absolutely, and one of the roles of the task 
force is just that, is training, is that we go out and we train 
officers from across the State of Vermont to, at the very 
least, engage in a lower-level type of investigation where they 
are able to respond to crime scenes that have digital evidence. 
They can do basic lower-level, patrol-officer-level forensic 
examinations onsite if needed.
    So we are actually providing that, and we are giving 
officers throughout the State of Vermont the skills that they 
need to at least initiate these investigations from the ground. 
And then if we need to come in later on for more complex 
investigations or for investigative support, we are also there 
for that as well.
    Senator Sessions. Excellent.
    Senator Kohl. [Presiding.] Thank you very much, Senator 
Sessions.
    Chief Flynn, for many years, we have been asking law 
enforcement to do more with less, and so our ability to fight 
crime has been undermined as a result. With the recent 
increased support in the 2009 omnibus appropriations act as 
well as the stimulus bill, what must law enforcement officials 
do to ensure taxpayers that the money, the resources that we 
are now putting out there to be used by local law enforcement, 
what can you do to assure us that the money will be used 
effectively?
    Chief Flynn. I think that is a very important question, 
Senator, and I think one of the challenges that Senator 
Sessions raises is the accountability issue, which is, Are we 
properly accounting for our use of public assets.
    We have certainly committed ourselves in the Milwaukee 
Police Department to being proper stewards of public assets, 
and we have a track record in this last year of carefully 
managing those assets that the city provides us. And we have 
even managed to curtail our overtime because we have carefully 
examined our existing business practices in order to create 
maximum efficiencies, because we recognize that every dollar we 
save is a dollar we can apply to good law enforcement.
    So I think it is important that there be strings attached, 
if you will, to this money and that there be accountability. 
And I think we ought to be audited as to how we spend this 
money. And if we can draw a nexus between our investments in 
local capacity and an impact on crime and on fear and on 
disorder, I believe we can do all three.
    We have certainly worked very hard in this last year and a 
half in Milwaukee to be a data-driven police department that 
manages itself by its metrics. It is constantly aware of the 
changing crime environment. But we also recognize that there is 
a felt need on the streets of Milwaukee for a visible, stable 
police presence. And one must keep in mind in central cities 
that I wish we could spend all of our time fighting crime. If 
we could, we could have even a more dramatic impact. But we are 
the social service agency of first resort for the poor, and 
even in our busiest, most crime-ridden neighborhoods, the 
police department is spending 80 percent of its time helping 
people in crisis, be they the mentally ill, the drug-addicted, 
the alcohol-addicted, dysfunctional families, problems with 
youth, child abuse--all manner of disputes, disturbances, and 
car accidents. The police department is heavily committed to 
those duties and tasks.
    And so, consequently, it is a challenge for us to identify 
preventive policing resources, and that is why COPS grants 
money is so important to us. It allows us to make an extra 
investment in those police resources so we can provide that 
foot patrol, so we can provide that bicycle patrol, so we can 
provide that stable presence in public spaces from which people 
draw strength and courage and begin to use their neighborhoods.
    You know, our challenge is to create neighborhoods that can 
sustain civic life, and we do that through the thoughtful 
application not just of crime attack strategies, if you will, 
but by problem solving and neighborhood stabilization.
    Keep in mind a very important point. The essence of General 
Petraeus' strategy in Iraq was not defeating the terrorists 
militarily. It was providing public safety in the cities. He 
recognized that no society can flourish, commercially or 
politically, without a base sense of public safety. And I would 
offer to all of you that that truism is just as true in our 
central cities as it is in Mosul and Baghdad. Our challenge is 
to restore that sense of stability and safety to our challenged 
neighborhoods so they can recover politically and economically.
    Senator Kohl. Chief Flynn, while the focus here today is 
primarily on local law enforcement programs, juvenile crime 
prevention and rehab efforts play a big role in reducing crime 
rates, as you know. The Juvenile Justice and Delinquency 
Prevention Act has played a key role in successful State and 
local efforts to reduce juvenile crime and get our young people 
back on track after they have had run-ins with the law.
    What role do your officers play within the juvenile justice 
system and the programs that are out there to help lead our 
young people away from getting involved in criminal activity?
    Chief Flynn. Well, I am not only proudly a police chief, 
but proudly a member of the Executive Board of Fight Crime, 
Invest in Kids, which you probably know of because they are a 
nonpartisan, public education group made up of police chiefs, 
prosecutors, and crime victims who make the point to inform 
Congress that research has demonstrated time and again that 
investments in young people can prevent crime longitudinally, 
whether it is investments in things like Head Start or early 
child care or investments in after-school activities.
    Milwaukee is heavily invested in a program known as Safe 
and Sound, which is a network of locations where young people 
can go after school, whether they are homework clubs or Boys 
and Girls Clubs or YMCA-based leadership activities, to have 
alternatives to the street, because our young people are at 
risk as victims as well as potential criminals, and most of the 
trouble that young people get into is after school closes and 
before their parents get home from work. And our challenge is 
to provide them healthy opportunities that keep them out of 
harm's way.
    I think judicious and thoughtful investments in juvenile 
justice systems as well as juvenile programming goes a long way 
toward preventing crime committed by juveniles, and just as 
importantly, preventing crime committed upon juveniles, because 
the peer group is always the group that is most victimized by 
other young people.
    Senator Kohl. How has that Safe and Sound program worked?
    Chief Flynn. I think it is terrific. You know, our officers 
are very engaged with it. It is a very powerful network of 
service providers in the city who have a wide array of 
opportunities for young people to participate in events after 
school. You know, everybody is not a basketball player, and so 
it is a challenge to provide a variety of activities that young 
people can benefit from in a safe environment. And I think it 
has been a very important component of our continued success in 
Milwaukee in controlling crime.
    Senator Kohl. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    With regard to juvenile crime, having been a United States 
Attorney for a long time, I am well aware of the Federal idea 
that juvenile crime is a local matter and there is almost no 
arrest of juvenile crimes--and, Chief, you have probably seen 
it. If there is a Federal investigation and juveniles get 
arrested, they usually ask the State and local people to take 
them because the Feds do not have a juvenile detention center; 
they do not have the system set up with counselors and the 
kinds of things that we use for juveniles. That is just sort 
of, Senator Kohl, one of the things that has happened over the 
years. It is probably good. So strengthening the State and 
local juvenile system is an important thing for the country.
    Just briefly, Chief Flynn, how big is your Milwaukee 
department? How many officers do you have?
    Chief Flynn. Two thousand sworn officers, and the 
population I think is about 605,000.
    Senator Sessions. And how many officers do you have on your 
team?
    Chief Flynn. Well, you know, obviously we have not hired 
anybody with universal hiring grant money in probably about 8 
years, but Milwaukee hired, I believe, 80 officers from that 
program who became part of our table of organization.
    Senator Sessions. Over the years?
    Chief Flynn. Yes.
    Senator Sessions. So over, I guess, 10 years or so, you 
hired 80 out of 2,000. So that is not the breakthrough numbers 
that I think we might understand the COPS program to be.
    Now, Dr. Muhlhausen, let me ask you to just state for the 
record--one of the criticisms of COPS was that several 
departments--I see one you mentioned, one in Mount Desert, 
Maine, rejected a grant, because you have to commit to keep 
this officer on the payroll, right? Isn't that the commitment, 
that a police department, if you get a COPS program they pay 
for 3 years, and then the city or the sheriff is supposed to 
pay that salary permanently and not reduce the other personnel 
in the office to pay for it, right?
    Mr. Muhlhausen. Yes.
    Senator Sessions. Now, what is the criticism with regard to 
the faithfulness of the cities who got these police officers in 
following through on their commitment to maintain this as a 
permanent increase to the Department? Do you have any numbers 
on that?
    Mr. Muhlhausen. Well, I think the Inspector General found 
that abuse was widely just rampant among police departments 
with COPS grants. What happened was many agencies, they would 
hire a police officer through the COPS program while they were 
actually downsizing. Newark, New Jersey, and Camden, New 
Jersey, were recently in the news for--they are actually now 
being held accountable for their abuse during the 1990s.
    Other police departments--Atlanta--did not hire the number 
of officers it claimed. Then there was Seattle, did not hire 
the number of officers it was supposed to.
    There was a survey done by the National Institute of 
Justice that found that police departments that received COPS 
grants to hire additional officers, the majority of them did 
not know how they were going to retain the officers in the 
future.
    So I think that sets up a scenario where, once you get a 
COPS grant, the fund just for the basic routine services that 
local governments are supposed to provide anyways, when that 
grant runs out, they turn around, and whose fault is it that 
they have to let go of the police officer? It is not the local 
government is not living up to the grant. It is the Federal 
Government because they are not continuing to fund the program.
    So now I think we have a lot of pressure now where we want 
to turn the COPS program into a permanent subsidy for State and 
local law enforcement.
    Senator Sessions. Well, there is a lot of truth to that. I 
am just telling you. I know my police departments, and 
everybody does, and you take any money you can get. They are 
shortchanged by their counties and city budgets, and they are 
frustrated. And if they can get Federal money, it is a big 
asset to them, and they want it, and they are going to get it. 
The question is: Is this the best way and has it proven to be 
as effective as we would like it to be to enhance law 
enforcement?
    This has been passed. It is going to be out there, and I 
think all of us just need to do--as the Chief said, make sure 
we use every dollar as wisely as we can.
    Thank you, Mr. Chairman.
    Senator Kohl. Thank you, Senator Sessions.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman, for chairing the 
hearing, and, of course, just like you, I want to extend a 
special welcome to Chief Flynn of the Milwaukee Police 
Department. I had the opportunity to meet with the Chief a 
couple of months ago, and I was very impressed by the 
innovative ideas he has brought to the Milwaukee Police 
Department that have resulted in great strides toward lowering 
the crime rate in that city. So I welcome you.
    I am a long-time supporter and defender of Federal 
assistance to State and local law enforcement, as you know, in 
particular the Byrne/Justice Assistance Grants and the COPS 
grants. It is a partnership between the Federal Government and 
the State and local governments to provide adequate funding, 
and it is especially important now, when State and local 
agencies are being tasked with homeland security 
responsibilities in addition to their law enforcement 
responsibilities, when, of course, as we know certainly in our 
State, and I know in many other States, State revenue sources 
are greatly threatened, diminished by the recession.
    I am pleased that funding to support the available services 
that State and local law enforcement provide after being 
slashed repeatedly by the previous administration were provided 
in the economic stimulus package that Congress passed this 
year, and now this money has begun to make its way to State and 
local agencies across the country. It is important that 
Congress continue to stay informed of the situation on the 
ground and provide assistance where necessary and appropriate.
    And so, with that, I would like to really just ask the 
Chief from Milwaukee to answer one question. What would you say 
have been the most important factors that contributed to the 
dramatic decrease in violent crime that you have overseen in 
Milwaukee in the past year? And do you face special challenges 
in trying to continue to reduce crime during this economic 
downturn?
    Chief Flynn. I think we have had--I have benefited by an 
interlocking combination of circumstances. Number 1, I arrived 
to a police department that was nearly fully staffed. The mayor 
had made a major commitment within existing resources to keep 
the numbers of Milwaukee police officers up to its table of 
organization level, which was remarkable.
    With that resource and with the commitment to data-driven 
policing that we developed in our first several months there, 
and a commitment to neighborhoods, those interlocking 
combinations of community connection, data-driven analysis to 
deploy our resources, and adequate resources have allowed us to 
have a dramatic impact on crime.
    Last year, we reduced homicides by 32 percent, but within 
that number is a more profound number. The number of African 
American men between the ages of 15 and 29 murdered in 2008 was 
65 percent lower than it was in 2007, from 54 to 19, and that 
was a relentless focus on our crime hot spots, our gang areas, 
our open-air drug dealing, trying to break up the retaliatory 
cycle of violence. That takes people. That takes a commitment 
to getting officers in public spaces. And I sincerely believe 
it borders on the disingenuous to cite places like Newark and 
Camden that have been urban blast zones in terms of poverty, 
unemployment, urban degradation, destruction of the local tax 
base, and then, like Captain Renault in ``Casablanca,'' be 
``Shocked, shocked,'' to find out that the city has used COPS 
office hiring instead of local assets. They did not have any 
money, and they had extraordinary crime.
    Now, I am not here to defend bad practices, but I have also 
been a police officer a very long time and have seen an 
extraordinary amount of inner-city violence. And it is highly 
concentrated in those cities that have the worst tax bases. 
Surprise, surprise. What is America's responsibility to its 
citizens? If you have the accident of birth to be born in 
Newark, does that mean you deserve to get shot, but if you get 
born in Summit, New Jersey, you deserve to be safe? It is 
absurd. All right?
    The safety challenges of American cities are not uniform 
across the country, and the only agency of government in a 
position to assist American cities at high risk of violence and 
American citizens at high risk of violence is to provide local 
government assistance. I am looking at a city right now that 
has got a $40 million operating budget deficit right now as we 
speak. Why? Because the stock market collapsed with the 
employee pensions, and by charter, we have to fund it at 100 
percent. Now, that $40 million has to come out of an operating 
budget. That is going to put pressure on police and on 
firefightings and on roads and on every other such thing.
    And so as I am applying for COPS money, trying to hold onto 
the officers I have and prudently expand the numbers we have, I 
know I am going to be challenged going forward to continue to 
provide a safe environment for our citizens. And because of 
that, I certainly welcome the renewed interest in the U.S. 
Government in the safety of its local government citizens.
    Senator Feingold. Well, Mr. Chairman, I would have been 
pleased and proud to hear that answer from anyone in law 
enforcement, but I am particularly proud that the Chief of our 
largest city would be able to articulate that in such an 
eloquent and effective way.
    Thank you, Mr. Chairman.
    Senator Kohl. Thank you very much, Senator Feingold.
    Gentlemen, you have done a great job. I think the panel has 
been stimulating and informative--some degree of disagreement 
here, which is also always healthy in trying to get at some of 
the essentials. So we appreciate your being here, and we at 
this time dismiss the panel.
    [Whereupon, at 11:42 a.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] 54305.001

[GRAPHIC] [TIFF OMITTED] 54305.002

[GRAPHIC] [TIFF OMITTED] 54305.003

[GRAPHIC] [TIFF OMITTED] 54305.004

[GRAPHIC] [TIFF OMITTED] 54305.005

[GRAPHIC] [TIFF OMITTED] 54305.006

[GRAPHIC] [TIFF OMITTED] 54305.007

[GRAPHIC] [TIFF OMITTED] 54305.008

[GRAPHIC] [TIFF OMITTED] 54305.009

[GRAPHIC] [TIFF OMITTED] 54305.010

[GRAPHIC] [TIFF OMITTED] 54305.011

[GRAPHIC] [TIFF OMITTED] 54305.012

[GRAPHIC] [TIFF OMITTED] 54305.013

[GRAPHIC] [TIFF OMITTED] 54305.014

[GRAPHIC] [TIFF OMITTED] 54305.015

[GRAPHIC] [TIFF OMITTED] 54305.016

[GRAPHIC] [TIFF OMITTED] 54305.017

[GRAPHIC] [TIFF OMITTED] 54305.018

[GRAPHIC] [TIFF OMITTED] 54305.019

[GRAPHIC] [TIFF OMITTED] 54305.020

[GRAPHIC] [TIFF OMITTED] 54305.021

[GRAPHIC] [TIFF OMITTED] 54305.022

[GRAPHIC] [TIFF OMITTED] 54305.023

[GRAPHIC] [TIFF OMITTED] 54305.024

[GRAPHIC] [TIFF OMITTED] 54305.025

[GRAPHIC] [TIFF OMITTED] 54305.026

[GRAPHIC] [TIFF OMITTED] 54305.027

[GRAPHIC] [TIFF OMITTED] 54305.028

[GRAPHIC] [TIFF OMITTED] 54305.029

[GRAPHIC] [TIFF OMITTED] 54305.030

[GRAPHIC] [TIFF OMITTED] 54305.031

[GRAPHIC] [TIFF OMITTED] 54305.032

[GRAPHIC] [TIFF OMITTED] 54305.033

[GRAPHIC] [TIFF OMITTED] 54305.034

[GRAPHIC] [TIFF OMITTED] 54305.035

[GRAPHIC] [TIFF OMITTED] 54305.036

[GRAPHIC] [TIFF OMITTED] 54305.037

[GRAPHIC] [TIFF OMITTED] 54305.038

[GRAPHIC] [TIFF OMITTED] 54305.039

[GRAPHIC] [TIFF OMITTED] 54305.040

[GRAPHIC] [TIFF OMITTED] 54305.041

[GRAPHIC] [TIFF OMITTED] 54305.042

[GRAPHIC] [TIFF OMITTED] 54305.043

[GRAPHIC] [TIFF OMITTED] 54305.044

[GRAPHIC] [TIFF OMITTED] 54305.045

[GRAPHIC] [TIFF OMITTED] 54305.046

[GRAPHIC] [TIFF OMITTED] 54305.047

[GRAPHIC] [TIFF OMITTED] 54305.048

[GRAPHIC] [TIFF OMITTED] 54305.049

[GRAPHIC] [TIFF OMITTED] 54305.050

[GRAPHIC] [TIFF OMITTED] 54305.051

[GRAPHIC] [TIFF OMITTED] 54305.052

[GRAPHIC] [TIFF OMITTED] 54305.053

[GRAPHIC] [TIFF OMITTED] 54305.054

                                 <all>

</pre></body></html>
